 PROHIBITED PERSONNEL PRACTICES
By law, Federal employees may not:
• Discriminate                                         • Take or threaten to take a personnel
• Solicit or consider employment                       action because of whistleblowing
recommendations based on factors                       • Take or threaten to take a personnel
other than personal knowledge or                       action because of the exercise of a lawful
records of job related abilities or                    appeal, complaint, or grievance
characteristics                                        right
• Coerce the political activity of any                 • Discriminate based on personal
person                                                 conduct which does not adversely
• Deceive or willfully obstruct any                    affect the performance of the employee or
person from competing for                              other employees
employment                                             • Knowingly take or fail to take personnel
• Influence any person to withdraw                     action in the violation of veteran’s
from job competition                                   preference laws
• Give an unauthorized preference or                   • Violate any law, rule or regulation
advantage to improve or injure the                     implementing or directly concerning
prospects of any particular person for                 merit system principles
employment                                             • Implement or enforce a nondisclosure
• Engage in nepotism                                   agreement or policy lacking notification
                                                       of whistleblower rights


                              Visit us at http://oig.ssa.gov

To obtain additional information on prohitibited personnel practices you may write, visit
online, or call:		
					U.S. OFFICE OF SPECIAL COUNSEL
                                 1730 M STREET, N.W., SUITE 218
                                 WASHINGTON, DC 20036-4505
                                        WWW.OSC.GOV
                       PHONE: (202) 254-3600* TOLL FREE: 1-800-872-9855*
                 *Hearing and Speech Disabled: Federal Relay Service 1-800-877-8339
